July 7, 2005


MEMORANDUM FOR:                   EMILY STOVER DeROCCO
                                  Assistant Secretary for
                                   Employment and Training




FROM:                             ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

SUBJECT:                          Complaint Involving the Goodwill Industries of
                                   Lower South Carolina, Inc.
                                  Report No. 04-05-001-03-386

A complaint stated that the Goodwill Industries of Lower South Carolina, Inc. (GILSC)
claimed excessive matching contributions for Technology and Job Readiness training
classes provided to Welfare-to-Work (WtW) participants. According to the complaint, the
$600.00 per participant attributed to the training was more than the amount charged to
the general public and a nonprofit organization. Based on our audit results, we conclude
that GILSC did not claim excessive matching contributions for the training provided to the
WtW participants enrolled in the program. However, we found that:

      1. GILSC submitted two invoices for the month of January 2003. Each of these
         invoices included costs and adjustments that duplicated costs and adjustments in
         the other invoices. The net total of these duplicate costs and adjustments was
         $24,004.30.

      2. GILSC officials were unable to support a $20,500.00 charge to Job Readiness
         training.

      3. The County of Charleston, Grants Administration (the County) and GILSC could
         not provide us with two contract modifications to contract 2DR9093, which was the
         contract between the County and GILSC during the relevant time period. A third
         modification to the contract was unsigned by the GILSC.

The South Carolina Employment Security Commission (SCESC) authorized the Trident
Local Workforce Investment Area1 to spend a total of $1,350,063.00 of Fiscal Year 1999
WtW Formula Grant funds. Of that total, $389,900.00 was contingent upon the grant

1
    The Trident Local Workforce Investment Area consists of Berkeley, Charleston and Dorchester counties.
recipient, the County, receiving an agreement from the GILSC to provide $194,186.00 in
matching contributions.2 The County signed contract number 2DR9093 with GILSC to
provide a variety of services to eligible program participants, including: work experience,
job readiness, job placement, and training. The contract began on April 1, 2002, and
continued in operation until January 23, 2004, when all FY 1999 Formula Grants to States
were rescinded by enactment of Public Law 108-199. Under this contract, GILSC
reported matching contributions of $166,195.50 and grant expenditures of $309,480.31.

Objective, Scope and Methodology

We audited an allegation made by a former employee of GILSC that the organization
claimed excessive matching contributions for Technology and Job Readiness training
provided to WtW participants. According to the complaint, the $600.00 per participant
claimed for the training was more than the amount charged to the general public and a
nonprofit organization. The alleged excessive claims occurred during April 1, 2002,
through January 23, 2004.

To determine the merits of the allegation, we interviewed County and GILSC officials,
reviewed audit and monitoring reports, contracts, and invoices. We also obtained training
price lists from Goodwill Industries and its Internet website and compared the prices
offered to the general public with the amount claimed for training provided to WtW
participants.

To assess whether the amount GILSC claimed per participant for training exceeded the
cost associated with providing the training, we obtained payroll information from GILSC
for the three instructors used to train WtW participants. We verified the accuracy of the
payroll data by reviewing each instructor’s personnel file and select payroll records.
Using the instructors’ salaries and fringe benefits as a basis, we estimated the average
instructor cost for one 4-week Technology and Job Readiness training class. We then
divided the average instructor cost per class by the average number of students enrolled
in each class. We determined the average class size by obtaining a list of participants
who were enrolled in the training and divided this number by the number of classes
taught. To test the accuracy of the training list, we judgmentally selected 15 of 116
participant files and verified that each file supported the participant’s enrollment in
training. Because we concluded that the average instructor cost per participant exceeded
the amount claimed by GILSC for the training, we did not find it necessary to perform any
additional steps to determine the average cost per student for such costs as space,
equipment and supplies.

We also obtained invoices submitted by GILSC to the County during our audit period and
identified matching contributions and costs that were included in the invoice line items
Pre-Vocational Training and Job Readiness. We then reviewed the documentation that
supported these invoiced contributions and costs.

2
 WtW regulations at 20 Code of Federal Regulations (CFR), Section 645.300(a) allow states to receive
$2 in Formula Grant funds for every $1 in matching funds provided, up to the limit of each state’s
allotment.


                                                  2
   Fieldwork was performed at the County and GILSC offices in Charleston, South Carolina,
   June 1, 2004, through June 17, 2004. Our testing of internal controls focused only on
   those controls related to our audit objective of determining whether the allegation could
   be substantiated, and were not intended to form an opinion on the adequacy of internal
   controls overall, and we do not render such an opinion. Our audit was performed in
   accordance with Government Auditing Standards.

   RESULTS, FINDINGS AND RECOMMENDATIONS

   Results

   The allegation was not substantiated, since we found that GILSC did not claim excessive
   matching contributions for Technology and Job Readiness training provided to
   participants. We found that the amount claimed was less than the amount offered to the
   general public for similar training. Additionally, we found that the $600.00 per participant
   attributed to matching contributions for the training was less than the instructors’ average
   costs to conduct the training.3

   Although the complaint was not substantiated, we did find questioned costs and other
   matters as follows:

   FINDINGS:

A. Invoices Contained Duplicate Costs: Administrative requirements do not allow Federal
   funds to be used as matching contributions. The Office of Management and Budget
   (OMB) Circular A-110, Subpart C.23(a)(5) states that cost sharing or matching shall be
   accepted if they “are not paid by the Federal Government under another award. . . .”

   GILSC submitted two invoices to the County for the month of January 2003. One invoice
   contained program costs that were being claimed as matching contributions and the other
   invoice was submitted for reimbursement against the WtW grant. Each of these two
   invoices included costs and adjustments that duplicated costs and adjustments in the
   other invoice. The net amount of the duplicate costs and adjustments was $24,004.30.
   (See Exhibit 1.)

   When we brought the duplicate invoices to the attention of the County, the County’s
   Financial Director investigated these invoices. The Financial Director told us that, after
   discussion with GILSC officials, the invoice submitted by GILSC officials to support their
   matching contributions was submitted in error, leaving the other January invoice
   submitted for reimbursement as the correct invoice. Given this explanation, we
   concluded that the $166,195.50 reported as in-kind matching contributions during the

   3 Because we found that the amount GILSC attributed to the training was less than its average instructor

   costs, we concluded that WtW grant funds would not have been used to supplant the training costs of
   another program’s participants. Therefore, the issue of whether GILSC chose to subsidize another
   program’s training was irrelevant.


                                                       3
   period July 1, 2002, through January 31, 2003, was incorrect. The reported amount must
   be reduced by the $24,004.30 in net duplicate charges, leaving $142,191.20 of matching
   contributions and $284,382.40 of allowable grant funds. (See Exhibit 2.)

   The County retained $20,000.00 of the grant to cover administrative and eligibility costs,
   further reducing the available grant funds to $264,382.40. County officials paid GILSC a
   total of $309,480.31, which exceeded the grant funds available to them by $45,097.91.

   Subsequent to our identification of the duplicate costs, GILSC officials informed the
   County that their general ledger detail listings contained sufficient matching contributions
   to support their level of grant reimbursement. We obtained a copy of the documentation
   provided to the County and found that it was a detailed listing and summary of GILSC’s
   grant expenditures and its receipt of grant funds. The difference between the total grant
   expenditures and receipts was $168,265.63.4 Some of these costs were not previously
   reported. Since the grant has been closed and WtW grant funds are no longer available,
   if GILSC were to request reimbursement, the request would be denied.5 Consequently,
   we question costs of $45,097.91 that were charged to the grant in excess of the allowable
   grant amount.

B. Costs Charged for Job Readiness Were Not Supported: OMB Circular A-122,
   Attachment A, A.2.g states that for a cost to be allowable, it must “be adequately
   documented.”

   GILSC could not provide documentation that supports a $20,500.00 charge to Job
   Readiness training. The $20,500.00 was included as a lump sum charge on a January
   2004 invoice, and it was the first charge to Job Readiness training under contract
   2DR9093. We were told that this charge was intended to cover personnel costs incurred
   for Job Readiness throughout the contract period.

   We asked GILSC’s Vice President of Financial Services to explain how the $20,500.00
   amount was derived and to examine the documentation that supported this amount. This
   official did not adequately explain how the $20,500.00 was calculated, nor could he
   produce time sheets showing the dates and hours their instructor spent serving WtW
   participants.

   We also found that the County failed to determine whether this charge was properly
   supported. County monitors reviewed a sample of documentation supporting GILSC
   invoices during periodic monitoring visits. Our review of the County’s monitoring
   documentation revealed that the $20,500.00 charge was included in one of its periodic
   reviews. One document contained a notation that indicates the $20,500.00 was equal to
   4
     GILSC booked WtW grant expenditures, net of adjustments, of $560,842.76 and booked income of
   $392,577.13. The difference between these two amounts is what GILSC claimed as its matching
   contributions.
   5
     Employment and Training Administration (ETA) Training and Employment Guidance Letter No. 19-03,
   Attachment A, states: “After the closeout process has been completed, there will be no Federal funds
   available to pay for allowable late claims. State and/or local funds will be necessary to pay for any such
   costs.”


                                                        4
   41 clients multiplied by $500.00. Upon questioning County officials responsible for the
   financial monitoring, the officials could not specifically recall the notation or whether they
   had reviewed the $20,500.00 charge. The appearance of this large sum at the end of the
   contract period to a line item to which no prior charge had been made warranted further
   scrutiny. The County should have determined whether proper support existed for the
   $20,500.00 charge to Job Readiness.

   The instructor’s time was not maintained and reported on a regular and timely basis.
   The precise amount of time chargeable to the grant for Job Readiness instruction is not
   determinable in the absence of proper documentation. Without sufficient support, the
   $20,500.00 should not have been charged to the WtW grant. Therefore, we question the
   $20,500.00 as an unallowable cost.

C. Contract Modifications Were Missing: An administrative requirement at 29 CFR, Part
   97.42 requires that grantees retain records for a minimum of 3 years from the date of their
   last expenditure report submittal. The County of Charleston submitted its closeout
   package to the SCESC with a submittal date of March 22, 2004.

   The County signed a contract with GILSC to provide a variety of services to eligible
   program participants, including: work experience, job readiness, job placement, and
   training services. The County and GILSC were unable to find the first two modifications
   to the contract, and one additional modification was found unsigned by GILSC.

   The contract was signed soon after the SCESC notified County officials that $389,900.00
   in Federal WtW funds would be released to them contingent upon their reaching an
   agreement with GILSC to provide $194,186.00 in matching contributions. The contract
   was originally for the period April 1, 2002, through June 30, 2003, and its total allowable
   costs were $200,891.00. However, we found evidence to indicate that contract
   modifications extended the contract period to April 23, 2004, and increased the maximum
   allowable costs to $312,391.00.6

   According to the County’s Finance Director, contracts and contract modifications are
   maintained in a locked filing cabinet, but the modifications to contract 2DR9093 were not
   found.

   Without signed contract modifications, County officials could not provide proper evidence
   that their contract with GILSC was extended beyond June 30, 2003, or that allowable
   costs had been increased.




   6
     Contract modification number 3, unsigned by GILSC officials, included effective dates of July 1, 2003,
   through April 23, 2004. Use of these dates may indicate the contract date had been extended in a prior
   modification. Additionally, a letter from the County’s Grants Administrator informed GILSC that their
   allowable contract costs were $312,391.00, which also may indicate that the allowable costs had been
   increased.


                                                       5
Recommendations:

We recommend the Assistant Secretary for Employment and Training ensure SCESC:

      1. Recovers $45,097.91 of questioned costs from the County that were charged to
         the grant in excess of the allowable grant amount.

      2. Recovers $20,500.00 of questioned costs from the County for an unsupported
         charge to the grant for Job Readiness training. Recovery of any of the $20,500
         questioned costs related to Job Readiness training would reduce the total
         amount charged against the grant. These recovered costs would reduce the
         amount charged in excess of the allowable grant amount (see recommendation
         1, above). Therefore, the total amount of questioned costs should not exceed
         $45,097.91.

      3. Requires the County to prepare and implement sufficient written policies and
         procedures, to verify that Federal grant expenditures are properly supported and
         do not duplicate matching contributions previously claimed.

      4. Requires the County to prepare and implement written policies and procedures,
         to prevent grant funds from being paid to contractors without verifying that
         contracts and modifications have been returned and signed by the contractor.


SCESC and Charleston County Response:

SCESC and the County stated that total expenditures for which GILSC was not
reimbursed exceeded its match requirements. While the County agrees with the Office of
the Inspector General (OIG) that these costs were not reported during the grant period,
the costs were “expended” during the grant period. Therefore, the County plans to ask the
Employment and Training Administration (ETA) to allow GILSC to use the WtW costs for
which it was not reimbursed to support their match requirements.

SCESC and the County stated that GILSC is still unable to substantiate the $20,500.00
charges for the Job Readiness class. Consequently, these charges will be returned to
ETA. On June 15, 2005, Goodwill Industries sent the SCESC a check in the amount of
$20,500 (pay to the order of the U. S. Department of Labor), which represents a duplicate
payment for services submitted in error. On June 22, 2005, SCESC forwarded the check
to U.S. Department of Labor/ Office of Financial Administration Management for
processing.

The County’s Grant Administrator will establish written policies and procedures that
prevent grant expenditures from being paid and also claimed as matching contributions;
and prevent grants funds from being paid to contractors without verifying that contracts



                                           6
and modifications have been returned and signed by the contractor. See Appendix for
SCESC and Charleston County response to the draft report.


OIG’s Conclusion

We have considered SCESC’s and the County’s joint response to the draft report.
SCESC has recovered $20,500.00 from the County for an unsupported charge to the
grant for Job Readiness training and returned these funds to ETA. This action
implements Recommendation 2. No additional information was provided that materially
affects the report. Therefore, the report findings remain unchanged. The
recommendations will be resolved during DOL’s formal resolution process.

                                            ----

The subject final report is submitted for your resolution action. We request a response to
this report within 60 days. It is your office responsibility to transmit the attached report
promptly to the program officials for resolution.

If you have any questions about this report, please contact Michael K. Yarbrough,
Regional Inspector General for Audit in Atlanta, at (404) 562-2341.

Attachment

cc:   Laura Patton Watson, Grant/Contracting Officer
       Division of Resolution and Appeals Closeout Unit
      Phyllis Newby




                                             7
                                                                 EXHIBIT 1

                Schedule of Duplicate Costs and Adjustments

 Reported Matching Contributions                                 $166,195.50

 Duplicate Costs:
   Work Experience                   $8,040.10
   Pre-Vocational Training            6,755.00
   Direct Training Staff Salaries     6,314.68
   Incentives                         1,349.81
   Supportive Service                   659.93
   Operating                            592.88
   Administrative Staff Salaries         87.25      $23,799.65

 Duplicate Adjustments:
   Operating Expenses                     408.72
   Administrative Salaries                145.93
   Voided Checks                         (350.00)      204.65      24,004.30

 Contributions Less Duplicate Costs and Adjustments              $142,191.20



                                                                 EXHIBIT 2

            Schedule of Amount Exceeding Allowable Grant Funds


Total Amount Invoiced                                             $309,480.31

Calculation of Adjusted Grant Funds:
   Reported Matching Contributions              $166,195.50
     Less Duplicate Costs and Adjustments         24,004.30
   Actual Contributions                         $142,191.20

   Actual Contributions                         $142,191.20
                                                        X2
   Allowable Grant Funds                        $284,382.40
      Less County Administrative Costs           (20,000.00)       264,382.40

Amount Exceeding Allowable Grant Funds                             $45,097.91
                                                APPENDIX




SCESC and Charleston County Response to Draft Report
